HHS/OIG, Audit -"Review of Outlier Payments Made to Mercy Hospital Under the Outpatient Prospective Payment System for the Period August 1, 2000 Through June 30, 2001,"(A-01-02-00518)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outlier Payments Made to Mercy Hospital Under the Outpatient Prospective Payment System for the Period
August 1, 2000 Through June 30, 2001," (A-01-02-00518)
April 17, 2003
Complete
Text of Report is available in PDF format (580 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether outpatient claims with outlier payments were billed in accordance
with Medicare laws and regulations.  We judgmentally selected 35 claims with outlier payments of $133,798.  We
found overpayments of $50, 280 were made for 33 of the selected claims because Mercy Hospital did not properly : (1)
calculate the billable units for drugs in relation to the amount of the drug administered; and (2) identify multiple surgical
procedures with specific HCFA Common Procedure Coding System codes.  For these 33 claims, the reduction to the outlier
payment received exceeded the increased reimbursement Mercy Hospital would have received had it billed properly.  Mercy
Hospital concurred with our findings and recommendations.